                        US SMALL BUSINESS ADMINISTRATION
                              OFFICE OF INSPECTOR GENERAL
                                  Washington, DC 20416

                                                       AUDIT REPORT
                                                Issue Date:
                                                 March 31, 1999
                                                Number: 9-10

TO:          Robert J. Moffitt
             Associate Administrator
             Office of Surety Guarantees

             lsi Original Signed
FROM:        Peter· L. McClintock
             Assistant Inspector General for Auditing

SUBJECT:     Audit of Contractors Bonding and Insurance Company

       The attached Independent Accountant's Audit Report (Attachment 1) presents
the results from their audit of Contractors Bonding and Insurance Company (CSfC).
The report by Cotton & Company, CPAs, discusses problems related to (1) claimed in­
house legal fees, (2) contract splitting, (3) incorrect powers of attorney, and (4)
underwriting file retention.

       You may release this report to the duly authorized representative of CBIC at your
discretion. This report may contain proprietary information subject to the provisions of
18 USC 1905. Therefore, you should not release this report to the public or another
agency without permission of the Office of Inspector General.

       Please provide us your proposed management decision for each
recommendation within 80 days on the attached SBA Forms 1824, Recommendation
Action Sheet. If you disagree with the recommendations, please provide us your
reasons.

       The findings in this report are based on the auditor's conclusions and the
report recommendations are subject to review, management decision, and action
by your office in accordance with existing Agency procedures for audit follow-up
and resolution. Should you or your staff have any questions, please contact Victor R.
Ruiz, Director, Headquarters Operations at (202) 205- [FOIA ex. 2]

Attachment
                                 CC~TON &COMPA:                                                     ;Y 

                                                 CERnFiED PUBUC ACCOUNTANTS ill

                               333 NORTHFAIRFAXSmrr        •    Sum 401      •   ALEXANDRIA, VIRClNIA22314

DAVIO L Corros. CPA. CFE                             MICHAEL \1i:' GIlLESPIE. CPA. CFE                               ELlES P REED. CPA
CHARLES HAYWARD. CPA. CFE                            CATHERINE L NOCERA. CPA                                         ,"'1ATTHE\\:' H IOHNS()~ CPA




                                                               June 19, 1998


          u.s. Small Business Administration
          Office of Inspector General


          BACKGROUND

                  The Small Business Administration's (SBA) Surety Bond Guarantee Program (SBG) was
          authorized by the Small Business Investment Act of 1958, as amended. It was created to assist small,
          emerging, and minority construction contractors. SBA indemnifies surety companies from potential
          losses by providing a Government guarantee on bonds issued to such contractors. SBA guarantees up to
          90 percent for contracts not exceeding $1.25 m iII ion. The SBG program is administered by SBA's
          Office of Surety Guarantees (OSG).

          OBJECTIVE, SCOPE AND METHODOLOGY

                  SBA's Office oflnspector General (OIG) requested Cotton & Company to conduct a
          performance audit of Contractors Bonding and Insurance Company (CBIC). The primary objectives
          were to detennine if:

          1. 	      Claims and expenses paid by SBA were allowable, allocable, and reasonable.

          2. 	      CBIC complied with SBA's and its own policies and procedures in applying for bond guarantees
                    for which SBA paid claims.

          3. 	      Fees due SBA were accurately calculated and remitted in a timely manner.

                    We obtained the universe C?ften bonds for which SBA had paid claims during the period October
           1, 1995, through April 30, 1998. Our total sample size was 7 bonds (see attachment) with claims (net of
           recoveries) totaling $637,966. The sample represents 27 percent of the $2,350,511 total claim payments
           (net of recoveries) per SBA's Claim Payment History Reports.

                   We tested sample bonds for compliance with SBA regulations for underwriting and fees by
           reviewing underwriting files and CBIC's accounting records. We tested claims incurred under sample
           bonds through April 30, 1998, by reviewing CBIC's supporting documentation in the claim files and
           accounting records. We obtained a list of all SBA-guaranteed final bonds from October 1, 1995, through
                                                                       2




             703/836-6701   • FAX 703/836-0941   •   H1T1':iIWW'X'.COTTONCPA.COI'1       •   E-MAIl: DCOTTON(g'COTTONCPA.CO.'.·
May 31, 1998, and identified contractors with total bonds exceeding $1.25 million for contracts with the
same obligee and bond issue dates within several months. We then reviewed project descriptions to
detennine if the bonds were for a single project divided into more than one contract. We also detennined
if any bonds issued to the sampled contractors were in default status prior to the sampled bond execution
dates and if bonds were issued to these contractors after the sampled bonds were placed in default.
Finally, we calculated the outstanding fee amount CBIC owed SBA as of April 30, 1998.

        In addition to the tests described above, we reviewed powers-of-attorney documents for three
bonds identified by OSG to detennine if the powers were valid.

       We conducted fieldwork during June 1998 at CBIC's offices in Seattle, Washington. The audit
was conducted in accordance with Government Auditing Standards, 1994 revision, except as described
below.

FOLLOW-UP ON PRIOR AUDITS

       The scope of our audit did not include following up on findings and recommendations from
previous audit reports:

AUDIT RESULTS AND RECOMMENDATIONS

        CBIC did not always comply with SBA's policies and procedures for processing claim payments
and underwriting bonds. Specifically, CBIC claimed in-house legal fees considered to be CBIC
overhead costs, excess loss under one bond, and expenses for a bond that did not have a loss. Also,
CBIC issued bonds for contracts constituting "single projects" that aggregated more than $1.25 million,
executed bonds using incorrect powers of attorney, and did not retain a required underwriting document.
As a result, we questioned $140,119 and noted that SBA guaranteed $2,715,074 on ineligible bonds. In
addition, CBIC calculated fees correctly and reconciled its records of fees due SBA to SBA's records on
a monthly basis~ immaterial differences exist, however, that have not yet been resolved.

        We conducted an exit conference with CBIC personnel on June 19, 1998. CBIC personnel
generally agreed with factual aspects of the findings and stated that they would review their records to
detennine if they could locate additional documentation to support some of the findings noted.

        Our findings and recommendations are discussed in detail below.

1.      CBIC Legal Fees

        Before January I, 1996, CBIC used the [FOIAex.6] Law Firm to adjust its bond claims, handle
subrogation efforts, and handle CBIC corporate legal matters. The [FOIAex.6] Law Firm's owner became the
president of CBIC in 1983, and one of its attorneys was CBIC's secretary. In January 1996, [FOIAex.6] Law
Firm employees (two attorneys, one paralegal, and one clerk) became employees ofCBIC. These
employees continued to handle CBIC's corporate legal matters and process nationwide bond claims,
including defending lawsuits and filing indemnity actions within Washington State. The [FOIAex.6] Law
Firm maintains an inactive license and has no employees.




                                                     3

        CBIC claimed reimbursement from SBA for in-house legal fees totaling $26,303 since January
1996. We question these loss adjustment expenses in accordance with 13 CFR 115.16, Determination of
Surety's Loss, which states:

                 Loss does not include the following expenses: (1) Any unallocated
                 expense, or any clear mark-up on expenses or any overhead, of the
                 Surety, its attorney, or any other party hired by the Surety or the
                 atto~ey; ...


        The regulations do not specifically define overhead. SBA, however, considers costs of all in­
house surety activities to be overhead, which is covered by the bond premium collected from the
principal.' Accordingly, we question all in-house legal costs claimed for reimbursement from January 1,
1996. SBA has not, however, paid CBIC for any of these costs.

         CBIC maintains that the regulations do not distinguish between in-house and outside expenses.
It considers its billing practices to comply with regulations requiring all expenses to be actually paid and
allocable to particular claims through a reasonable method and to exclude markup or general overhead
expenses.

       We obtained CBIC's December 5, 1997, correspondence to SBA describing its method of billing
SBA for legal department fees, and we reviewed CBIC's calculation of the May 1998 billing rate and
Calendar Year 1997 Departmental Breakdown of Expenses. We noted the following.

        CBIC Rationale: Legal department costs are actually paid.

        Cotton & Company Analysis: CBIC's FY 1997 legal department costs include salaries and
fringe benefits, as well as 22 other expense items, such as rent, office supplies, travel and entertainment,
and insurance. Because we did not audit actual legal department costs, we did not verify that all
expenses were actually paid. Fringe benefit costs include retirement, company incentive plans, and
manager incentive plans that may not always be funded (or paid) during the period they are expensed and
allocated to benefiting departments.

        CBIC Rationale: Legal department expenses are specifically allocable to the claim under the
SBA bond. Only actual time spent on an SBA claim file is billed to SBA at the hourly rate calculated
based on legal department costs divided by total legal department hours. Attorneys bill actual hours
worked although at least 8 hours is billed each day even if the attorney does not work the entire 8-hour
day.

         Cotton & Company Analysis: It is unclear from reviewing sample timesheets ifCBIC includes
vacation, holiday, and sick time on its timesheet, because these hours are not specifically identified as
such. CBIC stated, however, that vacation and sick leave are included in the general corporate billing
category. It is also unclear whether CBIC has been recording total hours worked since October I, 1996.
On the May 31, 1998, Calculation of Rates, a note states that the legal department senior vice president
will talk to staff about charging all hours. A base that includes vacation, holiday, and sick leave hours is


         I CBIC collects a premium from the principal to issue the bond and remits to SBA a guarantee fee, a

certain percentage of the bond premium.

                                                        4

conservative, because related costs are generally treated as fringe benefits and are allocable to final cost
objectives, iffringe benefits are allowable. A base that does not include total hours incurred on all legal
department activities is not, however, equitable, because it does not permit an allocation method based
on a causal and beneficial relationship.

         CBIC Rationale: The monthly billing rate is based on actual costs, and this same rate is charged
internally to other CBIC departments, reinsurers, and indemnitors.

         Cotton & Company Analysis: CBIC's method of calculating hourly rates differs from the
explanation provided in its December 5, 1997, letter. CBIC allocates prior month actual costs adjusted
for a to-date variance between actual and allocated costs of previous months. CBIC allocates legal
department costs to its property and casualty (P&C) functions using a predetermined hourly rate, which
was $50 until May 1998 when it was raised to $73.09. CBIC also uses a predetermined hourly rate for
allocating costs to it paralegal activities. After determining <;:osts allocated to the P&C and paralegal
activities, remaining legal department costs are used to determine an hourly rate for remaining
department activities (CBIC matters and contract bonds). This method is not equitable; it does not assure
that P&C activities absorb a fair share of department actual costs. This can only be demonstrated if
CBIC segregated legal department costs into various homogeneous cost pools and then computed
separate hourly rates.                                   .

       CBIC stated that, beginning January 1, 1999, the P&C claims operation will become a separate
department, thus alleviating the need to allocate costs between two operations.

        CBIC Rationale: The legal department hourly rate includes no mark up, profit, or non-legal
department overhead. Executive, accounting, information technology, and other department costs are not
included in the direct costs used to compute hourly rates, even though some of these departments provide
services to the legal department. The legal expense allocated to the handling of specific claims is
properly considered an allocated expense and is not included in general overhead.

        Cotton & Company Analysis: CBIC bases its hourly rates on actual costs either incurred by or
allocated to the legal department and does not include a factor for mark-up or profit. Legal department
costs include, however, an allocable share of indirect costs typically included in fringe benefit, overhead,
and general and administrative cost pools. These are:

        •    Rent on building and equipment
        •    Travel and entertainment
        •    Utilities
        •    Office supplies
        •    Insurance expense
        •    Depreciation and amortization
        •    Bank fees
        •    Advertising
        •    Subscription and dues
        •    Conventions and shows




                                                      5

        Based on the 1997 Departmental Breakdown of Expenses, legal department share of non-payroll
and fringe benefit expenses equaled about 3 percent ofCBIC's total non-payroll and fringe benefit
expenses. Legal department non-payroll and fringe benefit expenses comprIsed about 20 percent of total
legal department costs.

        We question total legal department costs of $26,303 for the reasons discussed above.

Recommendation: We recommend that the Associate Administrator, OSG, obtain an SBA legal counsel ,.r \
decision whether in-house legal costs constitute a reimbursable loss under the regulations and, if so, t,J
notify CBIC of the need to develop a billing methodology complying with legal counsel's decision.

CBIC Response: CBIC stated that CBIC operates in a manner different from other sureties in that its in­
house lawyers allocate their time to each matter and thus a proportionate share of the department's
expenses is allocated to each matter. Such expenses are treated as allocated loss adjustment rather than
as part ofCBIC's general overhead. As the legal department itemizes and documents its expenses,
which are specifically allocated to investigation and adjustment of claims, CBIC fails to see why in­
house legal fees should be treated differently than ifCBIC hired outside services.

The legal department's hourly rates do not include a markup or profit and thus it is cheaper for CBIC to
use its in-house legal services than to hire outside firms. Further, the expenses allocated to the legal
department are expenses that law firms incur and consider in their hourly rates. CBIC is willing to work
with SBA to identify those expenses that should be reimbursed. However, based on current wording of
the regulations, SBA cannot treat CBIC's claim for legal expenses any differently than another surety's
claim for reimbursement of outside legal expenses.

CBIC stated that except for rent expenses, the direct and indirect expenses of the legal department are
actually paid by CBIC. The rent expense allocated among various CBIC departments is not the rent
CBIC pays to the owners of the land upon which its building is located but rather the fair rental value of
office space in Seattle in 1992.

CBlC stated that it equitably allocates the cost of the legal department to the P&C department in arriving
at its predetermined hourly rates, as supported by an analysis performed by the accounting department.
It includes the payroll cost of the P&C department plus 40 percent ofthe legal departments operating
expense. While CBIC feels this is a fair and equitable allocation to the P&C operation, in January 1999,
the P&C claims operation became a separate department thus alleviating the need to allocate the costs
between two operations.

Accountants' Additional Comments: We continue to recommend that OSG obtain a legal counsel
decision to determine if in-house legal costs constitute reimbursable loss under the regulations. If the
decision is to reimburse CBIC for such costs, OSG and SBA should work together to determine what
types of costs should be included in the hourly rates, as suggested by CBIC. In cost reimbursable
situations, the cost of rent for company-owned buildings is limited to the constructive cost of ownership,
such as depreciation, taxes, insurance, facilities capital cost of money and maintenance, rather than
comparable rent for the geographic location.




                                                     6

2.      Excess Claim for Reimbursement (This finding was deleted from the final audit report)

3.      Legal Fees Not Allocable to a Loss (This finding was deleted from the final audit report)

4.      Aggregation of Contracts Exceeding Statutory Limits

        On tWo occasions, CBIC issued separate bonds for two contracts constituting "a single project"
and aggregating more than $1.25 million; the aggregated contracts were with the same principal and
obligee, and work was performed in the same general location. The contract project descriptions were:


Dixie-Southern Construction (80% SBA guarantee)

Bond No. FL2047                       $1,021,053      To furnish and supply lot carbon steel, rubber lined
Execution Date: 12/28/95                              pipe, and fittings to [FOIA ex. 6]          C/O Israel
Negotiated                                            Chemicals Projects, LTD (obligee).

Bond No. FL2051                       $970,902        To furnish and supply lot carbon steel, rubber lined
Execution Da~e: 12/28/95                              pipe, and fittings to Rotem Amfert Negev, c/o Israel
Negotiated                                            Chemicals Projects, LTD (obligee).

[FOIAex. 6] Mechanical   Company (80% SBA guarantee)

Bond No. WB6189                       $688,704        Mechanical work for Academic Training Complex at
Execution Date: 12/01/95                              Fairchild Airforce Base.
*

Bond No. WB6190                       $713,184        Mechanical work for KC-135 Squadron
Execution Date: 12/01195                              OperationsiAMU Facility at Fairchild Airforce Base.
*                                        .
                         * We could not determine if these contracts were bid or negotiated.

       Title 13 CFR 115.11, Definitions (1995 regulations), states that the contract amount is not to
exceed $1.25 million in face value. The amount of two or more contracts for a single project to be
performed in phases are not to be aggregated if the prior bond is released (other than for maintenance or
warranty) before the beginning of each succeeding phase. A single project is defined as one represented
by two or more contracts of one principal or its affiliates with one obligee or its affiliates for
performance at the same locality, irrespective ofjob title or nature of the work to be performed.

        Accordingly, SBA guaranteed ineligible bonds totaling $2,715,074 ($3,393,843 x .80 SBA
guarantee). As of April 30, 1998, no claims had been paid under the bonds, and CBIC listed the bonds as
being closed.




                                                          7

Recommendations: We recommend that the Associate Administrator, OSG:

1. 	   Obtain clarification from legal counsel as to whether CBIC complied with the 1995 regulations          ef\
       in executing the bonds in question, given the facts stated in CBIC's response to the draft audit
       report.

2. 	   If CBIC is determined to be in noncompliance, notify them that they are not following SBA's             e;"t
       regulations and, if the warranty periods for these bonds have not expired, future claims could be
       in jeopardy. Also, the AAlOSG should request CBIC to implement policies and procedures to
       ensure bonds are not issued for contracts exceeding $1.25 million if they constitute a single
       project.

CBIC Response: CBIC stated that the regulation cited in the audit report does not support the
recommendation because it sets forth only when contract amounts will be aggregated on a single project
that is phased, but does not address whether the contract amounts will be aggregated in other fact
situations. The position advanced by the auditor was subsequently adopted, but was not effective until
after the bonds in question were written. CBIC stated that the projects in question were not phased and
were completed without claim. In addition, CBIC stated that SBA's SBG specialist approved the bonds
for each contractor on the same date. In the event that SBA determines the bonds ineligible, CBIC
expects SBA to immediately refund the premium it received for these bonds.

Accountants' Additional Comments: Based on the response, we have revised the recommendation to
OSG.

5. 	    Invalid Powers-of-Attorney Issued

        CBIC issued invalid powers of attorney for three bonds as follows:

I. 	   SBG No. [FOIA ex. 2]       (Bond No. LB0699): CBIC stated that its agent used a power of 

       attorney for license and permit bonds rather than the proper power of attorney for contract bonds. 

       CBIC stated, however, that the bond was properly approved and authorized. 


2. 	    SBG No. [FOIA ex. 2]       (Bond No. LB0832): CBIC stated that its agent used a power of
        attorney for license and permit bonds rather than the proper power of attorney for contract bonds.
        The power of attorney certificate noted that Bond No. SA0233 was signed and sealed on March
        24, 1997, and included a statement that it was not valid for bonds executed on or after December
        7, 1996. CBIC stated that the error was discovered, and a contract power of attorney was issued.
        We could not determine when the revised power of attorney was issued; it was, however,
        accompanied by a transmittal letter from the agent dated February 19, 1998.

3. 	    SBG No. [FOIA ex. 2]         (Bond No. LB0979): CBIC stated that the bond number allocated to
        an agent to issue a bond differed from the number on SBA Form 990, Surety Bond Guarantee
        Agreement. When the difference was discovered, CBIC issued a rider to the bond to change the
        number to agree with the SBA Form 990. The original powers of attorney were dated April 30,
        1997, and the revised powers were dated May 2, 1997.



                                                    8

        Title 13 CFR 115.10, Definitions ( 1997 regulations), states that execution me~s signing by a
surety representative or agent with the authority and power to bind the surety. The lack of proper
issuance of the required powers of attorney affects the quality of CBIC' s underwriting and could result in
denial of liability for coverage under the bond guarantee.

       During fieldwork, CBIC represented that these three bonds were closed without claim. SBA has,
however, received claims for reimbursement under each of the bonds as follows:

                                          Total Claim                       Date on SBA
              SBGNo.                       Amount                           Form 994(H)

           [FOIA ex. 2]                     $61,141                       October 3 1, 1997
           [FOIA ex. 2]                     $35,114                       October 3 1, 1997
           [FOIA ex. 2]                     $17,561                       October 14, 1997


        We question the claimed amounts for these bonds totaling $113,816.

Recommendation: We recommend that the Associate Administrator, OSG, request CBIC to:

1. 	 Provide SBA a written affidavit or other support indicating that [FOIA ex. 6] was indeed an attorney­
    in-fact for CBIC's agent when the bonds were executed or ratify the powers of attorney for these
    three bonds.
                                                                                                              rl"
2. 	 Strengthen its internal controls to ensure that valid powers of attorney are granted before issuing
     SBA-guaranteed bonds in the future.

CBIC Response: CBIC stated that the bonds in question were executed long after CBIC appointed
   [FOIA ex. 6]  as its agent and [FOIA ex. 6] as its attorney-in-fact. The fact that the wrong power-of­
attorney was inadvertently attached to the bond does not negate the fact that CBIC did authorize the
agent to execute the bonds or that SBA authorized the bonds to be written and accepted premium for the
bonds. CBrC has no choice but to honor its obligations under the bond and SBA statutes, regulations and
guarantee agreement do not provide that SBA can void its guarantee because the wrong power-of­
attorney is used. Upon request, CBIC can provide an affidavit from the underwriter setting forth that
[FOIA ex. 6]     and [FOIA ex. 6] were authorized to issue the bonds in question.

Accountants' Additional Comments: We reviewed the appointment certificate attached to CBIC's
response to the audit report and noted that [FOIA ex. 6]       Insurance was authorized to represent CBIC
from May 25, 1995 through October 9, 1999. We also reviewed the September 4, 1996, memorandum
provided with CBIC's response, indicating that [FOIA ex. 6] was appointed attorney-in-fact effective
September 3, 1996. It was not evident that [FOIA ex. 6] was still authorized in February, March and
April when the bonds in question were executed. Accordingly, we revised our recommendation to
include obtaining an affidavit from the underwriter, or ratification of the powers of attorney.




                                                      9

6.       Underwriting Document Not Provided

         CBIC's file retention policy did not comply with SBA requirements. Specifically, CBIC could 

not locate a required underwriting document for one sampled bond (Sample No.3). CBIC did not 

provide Form 1624, Certification Regarding Debarment, Suspension, Ineligibility, and Voluntary 

Exclusion of Lower Tier Covered Transactions. Title 13 CFR 115.40 (b), Records (1994 regulations), 

states that relevant records within the meaning of paragraph (a) of this section are to be maintained for 

the term of the bond, plus any additional time required to settle claims for which the surety may seek 

recovery from SBA or attempt salvage or other recovery and for an additional 3 years thereafter. 


         CBIC stated that it did not always keep copies of Fonn 1624 in the underwriting files, but it 

submitted all required fonns to SBA prior to bond approval. CBIC and its branch offices were able to 

provide the majority of underwriting documentation sufficient to determine general compliance with 

SBA's underwriting regulations. 


  Recommendation: We recommend that the Associate Administrator, OSG, request CBIC to revise its
  underwriting procedures to ensure that all required documents are obtained and retained in the files for
. the time period required by SBA regulations.

 CBIC Response: CBIC does not dispute the auditors' finding and it is now CBIC's policy to retain all
 required documents submitted to SBA in its files.

 Accountants' Additional Comments: None.

 MANAGEMENT CONTROLS

          The scope of our audit did not include assessing management controls, and thus we did not 

 identify or test such controls. 


 SBA MANAGEMENT'S RESPONSE

         The Associate Administrator, OSG, stated that he reviewed the draft audit report and agreed that
 the recommendations have merit.




                                          COTION & COMPANY, LLP



                                            [FOIA ex. 6]
                                       By:.              c.


                                        Catherine L. Nocera, CPA




                                                      10 

                                                                                 Attachment


                                      SAMPLE BONDS




                                                                       Bond            Bond
Sample      Surety Bond     CBIC                                      Approval        Default
  No.      Guarantee No.   Bond No.           Contractor Name           Date           Date

         [FOIA ex. 2]      HI0025     [FOIA ex. 6]                    08116/89        04/10/90

  2      [FOIA ex. 2]       970372    [FOIA ex. 6]                    05/12/89        OS/23/90

  3      [FOIA ex. 2]      WB0774     Choctaw Construction Co.        08/29/94        04/21195

  4      [FOIA ex. 2]       001954    [FOIA ex. 6]                    09/08/82         06/83

  5      [FOIA ex. 2]      WA5565     Pacific West Industries, Inc.   08112/92        06/0.1/93

  6      [FOIA ex. 2]      WB7518     [FOIA ex. 6]                    02116/96        12/16/96

  7      [FOIA ex. 2]      LB0732     [FOIA ex. 6]                    02/28/97        04/28/97




                                              11
                APPENDIX 


CONTRACTORS BONDING AND INSURANCE COMPANY 

                                                                .- -.'-                 -- . .. '-            Legal Department



I!/Jic
                                                                                             ~         ~,
                                                                               ,- ~
                                                                                                       , ,.
                                                                                         -' , -
                                                                                                              1213 Vallev Street
                                                                . . :....        '.'
                                                                                                       ,-­    P.O. Box 9i71
                                                                                                              Seattle. INA 98109-02:-1
                                                                                                              (206. 028-7212
                                                                ~ ES        LS          \    22 f~    153     1206) 583-0307 FAX

                                                                • -_.- . . -                  r . -:':T,(
                                                               \.: ;-   ~   : ...'..:   ~:    " . ' " "­
Kevin L. l ybeck                                                        ': ~-' ,\ S. :' ~ ;'. :- ~-~ : 5
:)l'llillr l 'j,'L' [',,'sidC'lIe

                                                                        February 9, 1999

              VIA FEDERAL EXPRESS

              Robert J. Moffitt
              .-\ssociate Administrator
              Office of Surety Guarantee
              U.S. Small Business Administration 

              Washington, D.C. 20416 


                             Re:      SBA Audit

              Dear Mr. Moffitt:

                     This letter is written in response to the draft audit report prepared by the Office of Inspector
              General. I will address each issue in the order set fonh in the report.

                        CBIC's In-House Le~al Fees. The auditor questions CBIC entitlement to be reimbursed for
               its in-house legal fees, and has recommended that you obtain a legal opinion from SBA legal counsel
               regarding whether in-house legal costs are reimbursable under the regulations. I will address each of
               the issues addressed by the auditor in the order in which they are raised.

                      Are CHIC's In-House Legal Expense Considered a Reimbursable Loss? The auditor
               questions whether CBIC in-house legal fees are a reimbursable loss as the SBA considers costs of in­
               house legal surety activities to be overhead. The auditor bases her position on 13 CFR 115.16, which
               provides. in pertinent part, as follows:

                             "Loss does not include the following expenses: (1) unallocated expense, or any clear
                             mark-up on expenses or any overhead. of the Surety, its attorney, or any other party
                             hired by the Surety or its attorney ...."

                        CBrc operates in a manner different from other sureties in that its in-house lawyers allocate
                their time to each matter they handle. As a result, a proportionate share of the legal department's
                expenses is allocated to each matter handled by a lawyer. To the extent that legal department
                expenses are allocated to a specific claim file, those expenses are not treated as part of CBIC's
               'general overhead. Rather, these expenses are treated as allocated loss adjustment expense. .

                        The auditor acknowledges that the regulations do not define overhead, but indicated that the
               SBA considers cost of all in-house surety activities to be overhead. Please note that 13 CFR 115.16
               treats the expenses of sureties, outside attorneys, and other parties hired by the surery or attorney
               equally. Therefore. if the SBA ~ontends that CBrC cannot include certain allocated overhead costs in
               its calculation of the in-house attorneys' hourly rate, the regulations also require the SBA to apply the



                                    -Contractors       Bonding and                           Insurance Company.
Letter to Mr. yfoffitt
02.2'+199
Page 2


same rule to outside lawyers and consultants. Does the SBA think that outside attomevs and
consultants do not include all overhead costs (as well as profit) in determining their hourly rate~'?

        13 CFR 115.16(e) specifically provides, among other things, that CBIC is entitled to be
reimbursed for the costs of "investigation" and "adjustment" of claims, provided the costs are
itemized and documented. As the legal department itemizes and documents it expenses, we fail to
see why CBIC's in-house legal fees (which are specifically allocated to "investigation" and
"adjustment" of SBA claims files) should be treated any differently than if CBIC hired outside law
firms or adjustment firms to perform those services.

         As the legal department's hourly rates do not include a markup or protit, it is cheaper for
CBIC (and the SBA) to have CBIC's in-house lawyers provide legal services (as opposed to hiring
outside tirms to provide those services). Furthermore, the expenses allocated to the legal departtnent
are expenses that law firms incur and take into consideration (along with protit) in setting their
.hourly rates. CBIC is willing to work with the SBA to identify those expenses for which CBIC will
 be reimbursed. However, based on the current wording of the regulation, the SBA cannot treat
 CBIC's claim to be reimbursed for in-house legal expenses any differently than it would treat a
 surety's claim to be reimbursed for legal services provided by an outside law finn.

        Are CBIC's Ill-House Legal Expenses Actually Paid? The expenses of the legal department
are comprised of direct expenses (i.e., salaries, travel expenses, etc.) and indirect expenses (utilities,
insurance expense. ere.). The direct expenses and all indirect expense (other than rent) are actually
paid by CBIC. The rental expense allocated among the various departments is not the rent CBIC
pays to the owners of the land upon which its building is located, but is based on what the fair rental
value of office space in Seattle was in 1992. Please note that CBIC has not increased the amount
charged for rent despite the fact that the rental value of office space in Seattle has increased since
1992. CBIC is not seeking to make a profit by having its in-house lawyers provide legal services.
Rather. CBlC is merely trying to save itself (and the SBA) money as it is cheaper to have in-house
attorneys provide legal services than outside tirms.

        Calculation of Hour!.v Rates. CBIC's in-house hourly rate is determined by taking the
expense of the depanment and dividing it by the number of hours billed by the lawyers. Based upon
a random review of each lawyer's timesheets, we have determined that each lawyer has billed at least
8 hours a day since January 1; 1996 (the date the attorneys became employees ofCBIC).

        The auditor notes that for accounting purposes the expense of CBlC's P&C claims operation
is included in the legal department. The auditor also notes that CBIC allocated the legal
department's costs to the P&C department using a predetermined hourly rate of $50.00. I Thereafter,
the auditor opine~ that CBIC's method of allocating costs is not equitable because it does not insure
that the P&C department will absorb a fair share of the actual costs of the legal department.



 IThe' auditor notes (based on a foomote in my December 8 th letter) that the predetermined hourly rate for P&C claim
 personal increased from 550.00 for hour to S73.09 per hour in May 1998. Please be advised that the hourly rate was
 increased just during the month of May 1998 in order to allocate to the P&C operation the cost of moving [FOIAex.6]
      (who was hired as the director of P&C claims) from California to Washington.
Letter to :VIr. Yioffitt
02/24/99
Page 3


         CBIC believes that it has equitably allocated cost of the legal department to the P&C
department in arriving at the predetermined hourly rates. The hourly rate for the P&C claims was
arrived at through an analysis performed by CBIC's accounting department. The accounting
department determined the hourly rate based the payroll costs of P&C claims personnel, plus 40% of
the·legal department's operating expenses, arriving at the $50.00 per hour rate. 2 This hourly rate is
then multiplied by the total hours of the P&C claims personal to arrive at P&C's share of the expense
of the legal department. We feel this is a conservative and equitable allocation of the operation
expenses to the P&C operation. However. as of January 1, 1999, the P&C claims operation became a
separate department thereby alleviating the need to allocate the cost between the two operations.

        Excess Claim for Reimbursement (bond no. WB0774). Based upon the auditor's review of
CBIC's records, she detennined that CBIC submitted a reimbursement claim that exceeds the amount
of loss CBIC's records indicate it sustained by $2,542. CBIC disputes that its claim is excessive for
the reasons set forth below.

        The only bond that CBIC provided to Choctaw Construction that went into claim is bond no.
WB0774. However, due to a billing error a portion of The [FOIAex.6] Law Finn's bill was mistakenly
allocated to another SBA bond written for Choctaw Construction (bond no. WA6606; SBG no.
 [FOIA ex. 2]      This mistake was uncovered and a 994H was submitted including the costs
erroneously billed to bond no. W A6606. As a result of an oversight, CBrC internal records were not
corrected. Attached as Exhibit "A" are The [FOIA ex. 6] Law· Firm's billings, and a print out indicating
these legal bills were erroneously applied to bond no. W A6606. As the legal fees were incurred as a
result of claims made against bond no. WB0774, CBrC respectfully disputes the auditor's
recommendation that CBIC be required to reimburse the SBA.

         Legal Fees Not Allocable to a Loss (bond no. WB0939). The auditor recommends that
CBIC be required to reimburse the SBA for $126 in costs incurred on the above-reference bond
because CBIC did not sustain a loss under the payment or performance bonds. The costs questioned
represent the SBA' s portion of a $110.00 filing fee paid by CBIC to bring suit against the [FOIA ex. 6]
(the suit where we obtained a judgment against them) for losses sustained on bond nos. WB 1347 and
WB1527, and approximately $48.00 in legal fees paid by CBIC to The [FOIAex.6] Law Finn, P.S.
Unfortunately, a billing error occurred and these expenses were applied to bond no. WB0939 (despite
the fact that we did not sustain a loss on this bond). Nonetheless, these expenses were incurred in an
indemnity action brought against CBrc indemnitors seeking to recover losses sustained on bond nos.
WBl347 (SBG# [FOIAex.2]                     and WB1527 (SBG # [FOIAex.2]                     CBIC is
correcting its records to properly reflect the application of these costs to WB 1347 and will submit a
new 994H. Based on these facts. the SBA is clearly obligated to reimburse CBIC for the above­
referenced expenses.

        A2lUe~atioo of Coo tracts Exceedjo~ Statutory Ljmjts. The auditor has recommended that the
SBA deoy liability 00 bond nos: FL2047, FL2051, WB6189 and WB6190 if any claims are received
in the future. The basis for her recommendation is that "CBIC issued separate bonds for two
contracts constituting 'a single project' and aggregating more than S1.25 million: the aggregated



 : The 40% figure was arrived at based on the nwnber of employees in each depamnent.
Letter to Mr. Moffitt
02/2-1-/99
Page 4­


.:ontracts were with the same principal and obligee. ilnd work was performed in the same general
location."

       In making her recommendation. the auditor relied on Title 12 CFR 115.11, Definitions (1995
Regulations). This section provides. in pertinent part. as follows:

       The contract amount shall not exceed $1,250,000 in face value. The amount of two
       or more contracts for a single project, to be performed in phases, shall not be
       aggregated if the prior bond is released (other than for maintenance or warranty-see
       definition of "contract" in this section) before the beginning of each succeeding
       phase. A "single project" means one represented by two or more contracts of one
       principal or its affiliates with one obligee or its affiliates for performance at the same
       locality, irrespective of job title or nature of the work to be performed.

        The regulation, however, does not support the auditor's recommendation.:' The regulation sets
forth only when contract amounts will be aggregated on a "single project" that is phased, but does
not address whether the contract amounts will aggregate in any other fact situation. The position
being advanced by the auditor was subsequently adopted on January 31, 1996 (13 CFR 115.12(e)(2».
However. these revisions were not effective until after the bonds in question were written.

        The projects in question were not phased. [FOIA ex. 6]             entered into two separate
contracts with Oswood Construction. Oswood in turn had two separate contracts with Fairchild Air
Force Base (contract nos. DACA67-95-C-OI04 and DACA67-95-C-OI06) to perform construction
\vork on two separate buildings. While the term "phased project" is not defined in the SBA's
regulations. it is difficult to imagine that two separate contracts for separate buildings on an Air
Force Base could be considered a phased project. Both projects have been completed without claim.

         Dixie-Southern's contracts were not phased as well. Acid Pipe Technology (a material
distributor) issued to two purchase orders to Dixie Southern. Under these purchase orders, Dixie
Southern was to fabricate materials that Acid Pipe Technology was under contract (two purchase
orders) to ·supply to [FOIA ex. 6]         (a private company in Israel). It is my understanding that
the materials were used on two different plants (a sulfuric plant and a phosphoric plant) and the work
was performed concurrently on the projects. Dixie-Southern has delivered the materials and no claim
has been made on the bonds.

         In making your decision. please note that the applicable SBG specialist approved the bonds
 for each contractor on the same date. and all of the bonded obligations have been completed without
 claim. In the event that the SBA determines that the bonds in question are ineligible for the SBA
 guarantee, CBIC expects the SBA to immediately refund the premium it received for these bonds.

         Invalid Powers-of-Anornev. The auditor questions the SBA' s obligation to indemnify CBrC
 for losses sustained on the following bonds: LB0699, LB0832. and LB0979. The auditor questions
 the SBA's indemnity obligation based upon her belief that the agent was not authorized to issue the
 bonds because they had "invalid powers of attorney" attached to them.
Letter to Mr. Moffitt
02.:24199
Page 5


        The fact that the \\Tong power of attorney was attached to the above-referenced bonds does
not mean that CBIC' s agent was not authorized to execute the bonds. Rather, powers-of-attomey are
attached to bonds to provide proof to obligees that the person signing a bond on behalf of the surety
has the authority to bind the surety.

        In this case, CBIC received the bond submissions from          [FOIA ex. 6]  submitted them to
the SBA to obtain guarantees, obtained the guarantees, and authorized [FOIA ex. 6] to execute the
Donds as CBIC's agent (and affix CBIC's seal thereon). [FOIA ex. 6]          works for [FOIA ex. 6]
Insurance. CBIC appointed         [FOIA ex. 6] as its agent on May 25, 1995, as is evidenced by the
appointment certificate attached as Exhibit "B." Fwthennore. as is evidenced by the September 4,
 1996 memo attached as Exhibit "c,.. CBIC has authorized [FOIA ex. 6] to sign bonds as CBIC's
attorney-in-fact. Please note that the bOQds in question were executed on February 3, 1997, March
24. 1997 and April 30, 1997, respectively. Accordingly, the bonds were executed long after CBIC
appointed [FOIA ex. 6]      as its agent and [FOIA ex. 6] as its attorney-in-fact.

       In Washington, an agent (         [FOIA ex. 6]  Insurance) is not required to have a written
instrument (i.e., a power of attorney) before it can bind its principal (CBIC) on a contract (i.e., a
bond). Rather, an agency relationship can be created orally. Sharpe Signs Co. v. Parrish, 33 Wn.2d
883 (1949). Furthennore. Washington law provides that an insurance agent's authority may be
extended as far as the authority to execute insurance policies. 3 RCW 48.17.010 provides:

         "Agent" means any person appointed by an insurer to solicit applications for
         insurance on its behalf. If authorized to do so, an agent may effectuate insurance
         contracts. An agent may collect premiums on insurance so applied for or effectuated.

       Accordingly, the fact that the wrong power-of-attorney was inadvertently attached to the 
 

bonds does not negate the fact that CBIC did authorize the agent to execute these bonds;~ or that the 
 

SBA authorized the bonds to be written and accepted the premium for the bonds. Accordingly, when 
 

CBrC received claims on these bonds, it had no choice but to honor its obligations under the bonds. 
 


        Likewise, the SBA is obligated to h'onor its guarantees. We have reviewed the SBA statutes 
 

(13 U.S.c. § 694a, et. seq.), regulations (13 CFR 115 et. seq.), and guarantee (Form 990), and they 
 

do not provide that the SBA can void its guarantees because the WTong power of attorney is attached 

to bonds. 
 


        The auditor reports that CBIC ([FOIA ex. 6] ) represented to Cotton & Company ([FOIA ex. 6]
        ) that these bonds were closed without claim. As I previously infonned the auditor, [FOIA ex. 6]
       has no recollection of telling [FOIA ex. 6] that these bonds were closed without a claim. I
 also advised her that I suspected that this misunderstanding carne about as a result of a
 miscommunication as CBIC had nothing to gain by misleading them (particularly in light of the fact


 J  Washington law provides that a surety bond is insurance. See, RCW 48.11.80. 

 .l  L'pon request. care can prOVIde an affidavit from its under"\'.oTiter setting forth that   [FOIAex.6]   and 

 [FOIA ex. 6] were authonzed to issue the bonds in question. 

Lener to Mr. Moffitt
02.'2-l-:99
Page 6


that CBrC submined to the SBA a claim for reimbursement for losses sustained on these bonds).
Thus. we do not understand why this issue continues to be raised, unless the auditor is accusing
CBlC of attempting to intentionally mislead the SBA. If so, CBrC denies this allegation.

      Underwritine Documents Not Proyjded. CBrC does not dispute the auditor's finding and it is
now CBIC's policy to retain all required documents submitted to the SBA in its files.

        Attached as Exhibit "0" is· a spreadsheet setting forth CBrC's outstanding reimbursement
requests. Please note that CBre has reimbursement requests total $563,929.53, and that the auditor
has questioned only $142,787 of that amount. CBre feels that entire amount requested is past due
and requests an explanation regarding why the undisputed amount has not been paid.

         If you have any questions or need any additional information, please do not hesitate to call.

                                                 Very truly yours,

                                                 ~CTORS BONDING
                                                 AND ~SURANeE COMPANY
                                                 [FOIA ex. 6]
                                                 Kevin L--:fL Ybeck
End:        Exhibits A. B, C and D.
cc:         Steven A. Gaines
            Bob Ogle
0: ·.legal\c1aims\lcevin-sbaltr-3. doc
                                       AUDIT REPORT DISTRIBUTION· 



Recipient                                                                                            Number of Copies


Associate Deputy Administrator for 

   Capital Access ............................................................................................................ 1 


General CounseL ........................ ..................................................................................... 2 


Office of the Chief Financial Office 

   Attention: Jeff Brown ................................................................................................. 2 


General Accounting Office............................................................................................... 1 


Associate Administrator for Surety Guarantee ................................................................ 1 

